No:

-MiL>

Supreme Court, U.S.
FILED

JUL 1 6 2021

District case No.2:18-cr-265
OFFICE OF THE CLERK

IN THE

SUPREME COURT OF THE UNITED STATES
DARELLA. ANDERSON- PETITIONER

VS.

UNITED STATES OF AMERICA- RESPONDENT

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE SIXTH* CIRCUIT' PETITION FOR WRIT OF CERTIORARI

Respectfully submitted,

c

DARELL A. ANDERSON#69951-061

FEDERAL MEDICAL CENTER LEX

RECEIVED'

JUL 2 3 2021

P.O. BOX 14500
LEXINGTON, KENTUCKY 40512
CERTIFICATION NUMBER:
7018-1830-0001-9516-1508

7018-1830-0001-9516-1508

PAGE 1 OF iO

QUESTION PRESENTED FOR REVIEW

(1). The petitioner’s direct appeal, as of right, was not adjudicated
in accord with due process of law, and the plea agreement
contract is vague, and the plea agreement contract was breached...

7018-1830-0001-9516-1508

PAGE 2 OF 20

LIST OF PARTIES

(1). Kelly Ann Norris (ausa) 303 Marconi Boulevard, suite 200
Columbus Ohio 43215

(2). Sheila Gay Lafferty (AUSA) 303 Marconi Boulevard, suite 200
Columbus Ohio 43215

7018-1830-0001-9516-1508

PAGE 3 OF 20

TABLE OF CONTENTS
PAGE NUMBER:
TABLE OF AUTHORITIES

5

OPINIONS BELOW

6

JURISDICTION

7

CONSTITUTIONAL & STATUTORY PROVISIONS INVOLVED

8

STATEMENT OF THE CASE

9

REASONS FOR GRANTING THE PETITION

10-1 1

ARGUMENT

11-17

CONCLUSION

17-18

PROOF OF SERVICE AND FILING FEE

19-20

INDEX TO APPENDICES

.20(a)
l

7018-1830-0001-9516-1508

PAGE 4 OF 20

TABLE OF AUTHORITIES CITED
PAGE NUMBER
UNITED STATES V. LATONDA

13

MASSARO V. UNITED STATES

13

UNITED STATES V. WALDEN

13

UNITED STATES V. WELLS

13

7018-1830-0001-9516-1508

PAGE 5 OF 20

i

i

j

IN THE I1
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a Writ of Certiorari issue to
review the judgment below...
OPINIONS BELOW
(1). For cases from federal courts:
The opinion of the United States court of appeals appears at
Appendix_A

to the petition and is: UNPUBLISHED.

The opinion of the United States District court appears at
Appendix_B

to the petition and is:UNPUBLISHED.

7018-1830-0001-9516-1508

PAGE 6 OF 20

JURISDICTION

(1). For cases from federal courts:
The date on which the United States Court of Appeals decided
my case was: APRIL 20,2021.

The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).

i

7018-1 830-0001-951 6-1 508

PAGE 7 OF 20

. _i

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
CONSTITUTIONAL PROVISIONS:

PAGE NUMBER:

FIFTH AMENDMENT(DUE PROCESS OF LAW)

9,11

FOURTH AMENDMENT(SEARCH AND SEIZURE)

10,11

SIXTH AMENDMENT(SPEEDY TRIAL & EFFECTIVE ASSISTANCE)

10

STATUTORY PROVISIONS:
i

TITLE 18 U.S.C. § 3161(b)

10

TITLE 28 U.S.C. § 2255

13

RULES:
Fed.R.Crim.P. Rule 6(f)

10

S.Ct. Rule 24

18

S.Ct. Rule 29

19

S.Ct. Rule 38(a)

19

OTHER:
WEBSTER'S II NEW REVERSIDE UNIVERSITY DICTIONARY

16

l

7018-1830-0001 -951 6-1 508

PAGE 8 OF 20

STATEMENT OF THE CASE

In this case the petitioner will present 'FACTS' and 'EVIDENCE'
clearly showing the 'BREACH OF THE PLEA AGREEMENT CONTRACT' by the
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT. Petitioner
will also show the court that plea agreement contract is 'VAGUE*
and the Appellate Court did not adjudicate petitioner's direct
appeal in accord with due process of law...

i

7018-1830-0001-9516-1508

PAGE 9 OF <>20

REASONS FOR GRANTING THE PETITION
In this case, the petitioner was arrested and removed from
his property without an arrest and Search Warrant, and without exigent
circumstances, in violation of the Fourth Amendment of of the United
States Constitution. Declaring, Federal (DEA) agents conducted searches
and seizures of petitioners person(s), property and his car without
a 'Lawfully1 issued search warrant in violation of the United States
Constitution...

Asserting; the Government then filed Indict/*)£/)+ (ECF#22),
Case No.#2:18-cr-00265(1)(2), filed with the Clerk of Records December
20,2018 at 1:51p.m.,(see; apendix (E))... Further asserting, the
Government was shut down by 'EXECUTIVE' Order of the United States
President. Declaring, the Indictment (ECF#22), is in violation of
the Fifth Amendment of the Constitution (Due Process Clause), enforced
by the Fed.R.Crim.P. Rule 6(f), requiring the Grand Jury foreperson
to 'return' the indictment in open court, and not by information
filed by the Government...

The Government 'ILLEGALLY AND UNLAWFULLY' FILED SEVERAL
'DUPLICITIOUS' AND 'MULTIPLICITOUS' SUPERSEDING INDICTMENT;(SEE;
APPEDIX

(E)(2)(3)),(ECF#55,#60),CASE NO.§2:18-CR-00265, FILED WITH

THE CLERK OF RECORDS ON THE FOLLOWING DATES: NOVEMBER 7,2019 AT NOON
ALSO; NOVEMBER 21,2019 AT 11:07a.m., THAT WERE UNTIMELY AND NOT RE­
TURNED IN OPEN COURT IN ACCORDANCE WITH RULE 6(f), Fed.R.Crim.P.,
in violation of the Sixth Amendment; Fifth Amendment; asserting:
Title 18 U.S.C. §3161(b)...

7018-1830-0001-9516-1508

PAGE 10 OF 20

Declaring; the trial counsel and Government then violated the
defendants (Due Process) by subjecting Defendant to unnesessary
mental health evaluation(s) (see; Sealed ecf#41 & #42, compentency
hearing date of OCTOBER 7,2019...

The District Court violated Defendants 4th,5th and 14th
amendment right(s) by permitting the Government to use evidence
against Defendant at trial that the Government seized in violation
of the 4th amendment (see; ILLEGALLY 'EXECUTED1 SEARCH WARRANT;
ECF#3; CASE NUMBER: #2:18-MJ-714). Asserting; the District Court
would not permit Defendant to challenge the procedure when Defendant
had 'NO* counsel, (see; ecf#69 of case no.#2:18-cr-00265)...

Declaring; the U.S. Court of Appeals for the Sixth Circuits
decision in its April 20,2021, judgment conflicts with 'relevant'
decisions of this Honorable Supreme Court of The United States
justifying this courts order to issue the Writ of Certiorari in
this case because the record is needed in this matter this Honorable
Court must issue the Writ of Certiorari directing the trial Court
and the Appeal Court for the Sixth Circuit to deliver the record
in this case for review by this court...
I
ARGUMENT
The Petitioners Direct appeal as of right, was not adjudicated
in accord with Due Process of law, and the plea agreement contract
is vague, and the plea agreement contract was 'BREACHED'...

7018-1830-0001-9516-1 508

PAGE 11 OF 20

Petitioner argues that the United States Court of Appeals
for The Sixth Circuit has indeed failed to adjudicate his Direct
Appeal in accord with Due Process of law; the contract was Breached
by the Government; the contract is vague...

In the Courts order (case no.#20-4053, U.S.A v. ANDERSON),
the court held Anderson entered a valid, unconditional guilty plea
in the midst of trial,"reserving the right to raise only ineffective
assistance of counsel and prosecutorial misconduct claims on appeal",
(see; Page 9 of 10 of the courts order, case no.#20-4053)...

In Petitioners direct appeal brief he raised (two) issues as
follows: (i)-was trial counsel ineffective; (ii)-did prosecution
engage in prosecutorial misconduct,(see; appellants brief filed
Ffctopuary 23,2021, with the court of appeals for the Sixth Circuit,
page#9,18: case no.#20-4053)...

The Court held that "a thorough review of the record reveals
no basis for pursuing any ineffective assistance of counsel or
prosecutorial misconduct claims at this time. Thus, the appeal wavier
provision in the agreement is enforceable and, assuming that the
guilty plea itself is valid, Anderson may not appeal his conviction
and sentence"...

The Court further stated in the Order "a valid unconditional
guilty plea waives all 'Constitutional violations occuring' prior
to a plea of guilty once the defendant enters his plea" unless ex-o

7018-1830-0001-9516-1508

PAGE 12 OF 20

I

pressly preserved in a plea agreement ■.

s,at /

j

a plea hearing",

(citing UNITED STATES v. LATONDA,509 F.3d 750,757(6th Cir.2007:
and HENDERSON 411 U.S. 258,267(1973)...

The petitioner argues that the appeal waiver provision in the
plea agreement contract permits defendant to raise on direct appeal
"any1 ineffective assistance of counsel claims without a specified
limit to certain ineffective assistance of counsel claims...

Here, the Court of Appeals for The Sixth Circuit declined to
consider all but petitioners twelfth claiimi-of ineffective assistance
of trial counsel. The court Stated "ineffective assistance of counsel
claims generally are disfavored on Direct Appeal and are brought
more appropriately in a 28 U.S.C.§2255 MOTION TO VACATE,SET ASIDE
OR CORRECT SENTENCE",(citing; MASSARO v. UNITED STATES, 538 U.S.
500,504-05(2003): UNITED STATES v. WALDEN,625 F.3d 961,967(6th Cir.
2010)...

This is so because the record usually is not developed adequately
and is not complete enough at the time of the direct appeal to permit
review of an ineffective assistance of counsel claim,(citing;
MASSARO,538 U.S. AT 504-05; WALDEN, 625 f.3d at 967). The court
further stated,"because the existing record does not demonstrate
any apparant errors and is not developed sufficiently as to the
issues raised, except for his twelfth claim, Andersons ineffective
assistance of trial counsel claims are premature".(citing; UNITED
STATES v. WELLS,623 F.3d 332,348(6th Cir. 2010),(see; Order pages

7018-1830-0001-9516-1508

PAGE 13 OF 20

#7 & #8, CASE NO.#20-4053)...

Petitioner argues that such terms and conditions were not
disclosed to defendant when the Government offered the plea agree­
ment contract to defendant at trial .''The District Court did not
inform defendant that ineffective assistance of trial counsel claims
generally are disfavored on direct appeal except for claims similar
to the twelfth claim". "Trial counsel did not inform defendant of
the condition as well. And if, the plea agreement contract stated
in writing that ineffective assistance of trial counsel claims are
disfavored on direct appeal, except for ineffective assistance of
counsel claims similar to the twelfth claim, Mr. Anderson would ■
not have signed the plea agreement contract and mutually agreed to
all the terms and conditions listed in the plea agreement contract
because defendant would have learned that he had no direct appeal
remedy for the ineffectiveness of trial counsel claims he did raise
on direct appeal in the appellate's brief"...

Since Mr. Anderson was not made aware of the condition that
ineffective assistance of counsel claims are disfavored on direct
appeal, the plea agreement contract is 'void and breached' by the
Government warranting relief, for Mr. Anderson, from the court...

When the court of Appeals for The Sixth Circuit declined to
consider and adjudicate all but the appellate's twelfth claim of
ineffective assistance of trial counsel, that decision breached the
plea agreement contract. Since the contract was breached by the
7018-1830-0001-9516-1508
PAGE 14 OF 20

Government and Mr. Anderson has no remedy this court should issue
the Writ of Certiorari, acquire the record that is available, and
grant relief to the petitioner...

Petitioner argues that(AUSA):Kelly Ann Norris engaged in pro­
secutorial misconduct during his criminal case. Petitioner on direct
appeal in the appellants brief raised prosecutorial misconduct issues.
Under the appeal waiver provision Petitioner is not prohibited from
pursuing 'any1 ineffective assistance of counsel or prosecutorial
misconduct claims,(see; Order page #2,case no. #20-4053). Mr. Anderson
raised (3) prosecutorial misconduct issues in the appellant's brief.
The court of Appeals for The Sixth Circuit held in its order that:
(i)-first any error in the admission of testimony or evidence at
trial and any alleged defects in the indictment were waived when
Anderson entered a valid, unconditional guilty plea in the midst
of trial reserving the right to raise only ineffective assistance
of counsel and prosecutorial misconduct claims on appeal",(citing;
Tollett,411 U.S. at 267,Lalonde, 509 F.3d at 757)...

The three issues raised by appellant in the appellants brief
were prosecutorial misconduct claims, under the appeal waiver pro­
vision petitioner is permitted to raise 'any

ineffective assistance

of counsel or prosecutorial misconduct claims. This includes the
three prosecutorial misconduct claims raised by appellant in the
appellants brief, it should be noted that the plea agreement contract
does not state Mr. Anderson can not raise certain prosecutorial mis­
conduct and ineffective assistance of counsel claims. The term 'ANY'
y-d-f'3-1 630-0001 -9516-1508
PAGE 15 OF 20

(DEFINED IN WEBSTER'S II NEW REVERSIDE UNIVERSITY DICTIONARY: (1)one or more,regardless of sort, quantity, or number,'any' is clearly
written in the plea agreement contract, and the term 'any1 was under­
stood by Mr. Anderson to mean "every1 existing prosecutorial mis­
conduct or ineffective assistance of counsel claim in his criminal
case)....

The plea agreement contract is 'ambiguous'

as to which pro­

secutorial misconduct or ineffective assistance of counsel claims
Mr. Anderson could and could not raise on direct appeal. The plea
agreement contract in this case should be interpreted against the
'Drafter* the Government...

Within the plea agreement contract, under the appeal waiver
provision, Mr. Anderson waived "the right to appeal the conviction
and sentence imposed except if the sentence imposed exceeds the
statutory maximum". The appeal waiver provision did not prohibit
Mr. Anderson from pursuing 'any' ineffective assistance of counsel
or prosecutorial misconduct claims. For the appeal waiver provision
to prohibit Mr. Anderson from raising 'any*

prosecutorial misconduct

of ineffective assistance of counsel claims constitutes more than
one interpretation, it also does not fairly inform Mr. Anderson of
what is prohibited or commanded, violative due process. Had Mr.
Anderson fairly understood the appeal waiver provision prohibited
certain ineffective assistance of counsel or prosecutorial misconduct
claims on his direct appeal, as of right, he would not have entered
a plea...

7018-1830-0001-9516-1 508

PAGE 16 OF

20

The court of appeals for The Sixth Circuit reviewed the plea
agreement contract, and the court determined to not consider and
adjudicate Mr. Anderson's claims in accord with Due Process of law
citing the appeal waiver provision as its reason to not adjudicate
the claims and ignoring the 'Fact1 that the appeal waiver provision
did not prohibit 'any1 ineffective assistance of counsel or pro
secutorial misconduct claims which was the only claims Mr. Anderson
raised in the appeal's brief, by denying Mr. Anderson the right to
have all his ineffective assistance of counsel, and prosecutorial
misconduct claims adjudicated on Direct Appeal, as of right, Breached
the plea agreement contract and denied Mr. Anderson, constitutional
guaranteed Due Process of law... Mr. Anderson, merely raised, in
the appellant's brief, valid ineffective assistance of counsel and
prosecutorial misconduct claims, that the U.S. Court of Appeals for
The Sixth Circuit should have adjudicated in accordance with Due
Process of law under the Constitution...

CONCLUSION

The Writ of Certiorari should be issued because there is no
other remedy available to the petitioner. And petitioner has been
denied the right to a Direct Appeal adjudicated in accord with Due
Process of law by the court of appeals for The Sixth Circuit because
it relied upon a 'vague* plea agreement contract. The courts decision
conflicts with relevant decisions of this Honorable Court and only
this Court can declare the plea agreement contract 'Breached' and
'void', grant relief to petitioner, Mr. Anderson...

7018-1830-0001-951 6-1 508

PAGE 17 OF 20

In accordance with Rule 24(j), Petitioner respectfully request
this Honorable Court to issue the Writ of Certiorari...

RESPECTFULLY SUBMITTED,

/9 AA.

CARELL A.

ANDERSON

REG NO.#69951-061

FEDERAL MEDICAL CENTER LEXINGTON
P.O. BOX 14500
LEXINGTON, KENTUCKY 40512-4500
DATE:

si /& SL09L!

i

i

7018-1838-0001-9516-1508

PAGE 18 OF 20

